No. 19-277
ST

IN THE
Supreme Court of the United States

HSBC HOLDINGS PLC, CITIGROUP GLOBAL
MARKETS LIMITED, TENSYR
LIMITED, AND BA WORLDWIDE FUND
MANAGEMENT LIMITED, ET AL.,

Petitioners,
v.

IRVING H. PICARD,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Second Circuit

BRIEF FOR THE SECURITIES INDUSTRY AND
FINANCIAL MARKETS ASSOCIATION, THE INSTITUTE
OF INTERNATIONAL BANKERS, AND THE CHAMBER OF
COMMERCE OF THE UNITED STATES OF AMERICA AS
AMICI CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

Pursuant to Rule 33.1(h) of the Rules of the Supreme Court, and as a member
of the Bar of this Court, I certify that the document contains S, $2 F words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

 

judell@wmhlaw.com
WALDEN Macut & HARAN LLP

 
